No.

Jn tlje

Supreme Court of tfje ®niteti States
MELISSA L. BARNETTE, Petitioner,
V.

PROF-2013-M4 LEGAL TITLE, BY U.S. BANK,
NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE, Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that thpetition for a writ
of certiorari contains 9,000 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 18, 2019.

(Signature) Melissa L. Barnette, Petitioner

RECEIVED
NOV 2 0 2019
supreme"cTourtLmRqK

